1a
934 F.3d 1093
United States Court of Appeals, Ninth Circuit.
Kristanalea DYROFF, individually and on
behalf of the estate of Wesley Greer, deceased,
Plaintiff-Appellant,
v.
The ULTIMATE SOFTWARE GROUP, INC.,
Defendant-Appellee.
No. 18-15175
|
Argued and Submitted June 4, 2019,
Seattle, Washington
|
Filed August 20, 2019
Attorneys and Law Firms
David F. Slade (argued), Carney Bates & Pulliam
PLLC, Little Rock, Arkansas; Sin-Ting Mary Liu, Aylstock
Witkin Kreis & Overholtz PLLC, Alameda, California;
for Plaintiff-Appellant.
Jeffry A. Miller (argued), Lewis Brisbois Bisgaard &
Smith LLP, San Diego, California;, Lewis Brisbois Bisgaard & Smith LLP, San Diego, California; Shawn A.
Tolliver and Justin S. Kim, Lewis Brisbois Bisgaard &
Smith LLP, San Francisco, California; for DefendantAppellee.
Appeal from the United States District Court for the
Northern District of California, Laurel D. Beeler, Magistrate Judge, Presiding, D.C. No. 3:17-cv-05359-LB

2a
Before: Dorothy W. Nelson, Johnnie B. Rawlinson, and
Carlos T. Bea, Circuit Judges.
OPINION
D.W. NELSON, Circuit Judge:
Plaintiff Kristanalea Dyroff appeals the district
court’s dismissal of her claims against Defendant The
Ultimate Software Group (“Ultimate Software”), operator of the Experience Project website, for its alleged
role in the death of her son, Wesley Greer. While the
circumstances and facts of this case are no doubt
tragic, we find that Ultimate Software is immune from
liability under Section 230 of the Communications Decency Act. We therefore affirm.
BACKGROUND
This being an appeal from a motion to dismiss, we
describe the case as Plaintiff presents it. We take her
plausible allegations as true and draw all reasonable
inferences in her favor.
Experience Project was a social networking website made up of various online communities or groups
where users anonymously shared their first-person experiences, posted and answered questions, and interacted with other users about different topics. The site
did not limit or promote the types of experiences users
shared. The site’s “blank box” approach to user content
resulted in an array of topics and forums ranging from

3a
“I like dogs” and “I am going to Stanford” to “I have
lung cancer” and “I Love Heroin.”
Users registered with the site anonymously; in
other words, the site did not collect users’ identifying
information, including name, phone number, or mailing address. The site’s operator, Ultimate Software, believed that anonymity would promote users to share
more personal and authentic experiences without inhibition. Experience Project’s founder stated, “We don’t
want to know [users’] real name, their phone number,
what town they’re from.” Id. “The impetus behind this
policy [of anonymity] was to encourage users to share
experiences with the least amount of inhibition possible. The greater the anonymity, the more ‘honest’ the
post. . . .”
Experience Project was live from 2007 until March
2016, during which its users shared 67 million experiences, made 15 million connections, and asked 5
million questions. Users could join groups and the site
also recommended groups for users to join, based on
the content of their posts and other attributes, using
machine-learning algorithms. When a user posted content to a group, the site would send an email notification to the other users active in that group. The site
generated revenue through advertisements and the
sale of tokens that users used to post questions to other
users in their groups.
Some of the site’s functions, including user anonymity and grouping, facilitated illegal drug sales.
Wesley Greer was involved in one such transaction,

4a
which turned fatal. Wesley suffered from drug addiction, which began when a doctor overprescribed
him opioid pain killers after a serious sports-related
injury. After several unsuccessful rehabilitation attempts, Wesley bought what he believed to be heroin
from a fellow Experience Project user. Wesley posted
in a heroin-related group, “where can i [sic] score heroin in jacksonville, fl.” The site sent him an email notification when another user, Hugo Margenat-Castro or
“Potheadjuice,” an Orlando-based drug dealer, posted
in the same group. Wesley and Margenat-Castro connected off the site and Wesley bought heroin from
Margenat-Castro on August 18, 2015.
Wesley died the next day from fentanyl toxicity. He
did not know that the heroin Margenat-Castro sold
him was laced with fentanyl. Margenat-Castro was ultimately arrested and prosecuted. He pleaded guilty in
March 2017 admitting that he sold heroin laced with
fentanyl while active on Experience Project.
In March 2016, Experience Project announced, in
an open letter to its users, that it was shutting down.
The letter expressed concern for the future of online
privacy because of government overreach. It stated
that the site always supported proper law enforcement
efforts but recognized that it did not have the resources
to respond to increased government information requests. The site shut down on April 21, 2016.
Plaintiff Kristanalea Dyroff, Wesley Greer’s mother,
filed a complaint in San Francisco Superior Court. She
alleges that Ultimate Software: (1) allowed users to

5a
traffic anonymously in illegal, deadly narcotics and to
create groups dedicated to their sale and use; (2) steered
users to additional groups dedicated to the sale and
use of narcotics; (3) sent users alerts to posts within
groups that were dedicated to the sale and use of narcotics; (4) permitted users to remain active accountholders
despite evidence that they openly engaged in drug trafficking and that law enforcement had undertaken related investigations; and (5) demonstrated antipathy
toward law enforcement efforts to stop illegal activity
on Experience Project.
Ultimate Software removed the action from state
court based on diversity jurisdiction and filed a motion
to dismiss all claims under Federal Rule of Civil Procedure 12(b)(6). The district court granted the motion
without prejudice. Dyroff filed a notice stating that she
would not file an amended complaint and asked the
district court to enter judgement. Dyroff timely appealed the judgment.
STANDARD OF REVIEW
We review de novo both a district court order dismissing a plaintiff ’s claims pursuant to Federal Rule
of Civil Procedure 12(b)(6) and questions of statutory
interpretation. Fields v. Twitter, Inc., 881 F.3d 739, 743
(9th Cir. 2018). The Court must “accept all factual allegations in the complaint as true and construe the
pleadings in the light most favorable to the nonmoving party.” Rowe v. Educ. Credit Mgmt. Corp., 559 F.3d
1028, 1029-30 (9th Cir. 2009). Only a complaint that

6a
states a plausible claim for relief may survive a motion
to dismiss. Ashcroft v. Iqbal, 556 U.S. 662, 678, 129
S.Ct. 1937, 173 L.Ed.2d 868 (2009). Plausibility exists
when a court may “draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Id.
DISCUSSION
Plaintiff argues that in granting the motion to dismiss, the district court made three errors. First, she
argues, the district court erred when it held that Communications Decency Act (CDA) Section 230 immunizes Defendant Ultimate Software. Plaintiff reasons
that Ultimate Software, as the operator of the Experience Project website, was an information content
provider, as defined by the statute, because its recommendation and notification functions were “specifically
designed to make subjective, editorial decisions about
users based on their posts.” Second, according to Plaintiff, the district court erred when it found that her allegations of collusion between Ultimate Software and
drug dealers using Experience Project were not plausible. Her third argument is that the district court
erred in finding that Ultimate Software owed no duty
of care to her son, Wesley Greer, an Experience Project
user. We affirm because the district court did not err in
any of these respects.

7a
I.

CDA Section 230 Immunizes Ultimate Software from Plaintiff’s Claims

The CDA provides that website operators are immune from liability for third-party information (or content, like the posts on Experience Project) unless the
website operator “is responsible, in whole or in part, for
the creation or development of [the] information.” 47
U.S.C. §§ 230(c)(1) & (f )(3). Ultimate Software did not
create content on Experience Project, in whole or in
part. Accordingly, Ultimate Software, as the operator
of Experience Project, is immune from liability under
the CDA because its functions, including recommendations and notifications, were content-neutral tools used
to facilitate communications. See Fair Hous. Council of
San Fernando Valley v. Roommates.com, 521 F.3d 1157,
1167-69 (9th Cir 2008) (en banc).
A. Scope of CDA Section 230 Immunity
The CDA instructs us that “[n]o provider or user
of an interactive computer service shall be treated as
the publisher or speaker of any information provided
by another information content provider.” 47 U.S.C.
§ 230(c)(1) (emphasis added). The CDA defines an “interactive computer service” as
[A]ny information service, system, or access
software provider that provides or enables
computer access by multiple users to a computer server, including specifically a service or
system that provides access to the Internet

8a
and such systems operated or services offered
by libraries or educational institutions.
47 U.S.C. § 230(f )(2).
On the other hand, an “information content provider” is
[A]ny person or entity that is responsible,
in whole or in part, for the creation or development of information provided through the
Internet or any other interactive computer
service.
47 U.S.C. § 230(f )(3).
“The prototypical service qualifying for [CDA] immunity is an online messaging board (or bulletin
board) on which Internet subscribers post comments
and respond to comments posted by others.” Kimzey v.
Yelp! Inc., 836 F.3d 1263, 1266 (9th Cir. 2016) (internal
quotations omitted). In other words, a website like Experience Project. Taking the relevant statutory definitions and case law in account, it becomes clear that, in
general, Section 230(c)(1) “protects websites from liability [under state or local law] for material posted on
the[ir] website[s] by someone else.” Doe v. Internet
Brands, Inc., 824 F.3d 846, 850 (9th Cir. 2016); see also
47 U.S.C. § 230(e)(3).
Combining the above principles, in Barnes v. Yahoo!, Inc., we created three-prong test for Section 230
immunity. 570 F.3d 1096, 1100 (9th Cir. 2009). Immunity from liability exists for “(1) a provider or user of an
interactive computer service (2) whom a plaintiff seeks

9a
to treat, under a state law cause of action, as a publisher or speaker (3) of information provided by another information content provider.” Id. at 1100-01.
When a plaintiff cannot allege enough facts to overcome Section 230 immunity, a plaintiff ’s claims should
be dismissed. See Kimzey, 836 F.3d at 1268-71. Ultimate Software satisfies all three prongs of the test.
B. Section 230 Immunity—The Barnes test
1. Defendant is an Interactive Computer
Service
We interpret the term “interactive computer service” expansively. Kimzey, 836 F.3d at 1268. Ultimate
Software was an interactive computer service because
it did not create or publish its own content under the
plain language of the statute. Rather, Ultimate Software published Experience Project users’ posts and did
not materially contribute to its users’ posts.
Millions of users, including Plaintiff ’s son, Wesley
Greer, set up accounts on Experience Project, a website, to communicate with each other. Websites are the
most common interactive computer services. Kimzey,
836 F.3d at 1268; see also Roommates.com, 521 F.3d at
1162 n.6 (“[t]oday, the most common interactive computer services are websites”).
No binding legal authority supports Plaintiff ’s
contention that Ultimate Software became an information content provider, losing its Section 230 immunity,
by facilitating communication on Experience Project

10a
through content-neutral website functions like group
recommendations and post notifications. Ultimate Software, therefore, satisfies the first prong.
2. Plaintiff Treats Ultimate Software as
a Publisher or Speaker of Other’s Information/Content
An interactive computer service, like Ultimate
Software, can also be an information content provider,
but that is only relevant, for the purposes of Section
230 immunity, if the website it operates creates or develops the specific content at issue. Carafano v. Metrosplash.com, Inc., 339 F.3d 1119, 1124 (9th Cir. 2003).
Here, Ultimate Software was not an information content provider because it did not create or develop information (or content). 47 U.S.C. § 230(f )(3). Rather, it
published information created or developed by third
parties. Specifically, Experience Project did not create
or develop the posts that led to Greer’s death. Rather,
it was Greer, himself, who posted “where can i [sic]
score heroin in jacksonville, fl” on Experience Project.
And it was the drug dealer, Margenat-Castro, who
posted in response to Greer’s post.
It is true that Ultimate Software used features
and functions, including algorithms, to analyze user
posts on Experience Project and recommended other
user groups. This includes the heroin-related discussion group to which Greer posted and (through its
emails and push notifications) to the drug dealer who
sold him the fentanyl-laced heroin. Plaintiff, however,

11a
cannot plead around Section 230 immunity by framing
these website features as content. We have held that
what matters is whether the claims “inherently require[ ] the court to treat the defendant as the ‘publisher or speaker’ of content provided by another.”
Barnes, 570 F.3d at 1102. If they do, then Section
230(c)(1) provides immunity from liability. Id.
By recommending user groups and sending email
notifications, Ultimate Software, through its Experience Project website, was acting as a publisher of others’ content. These functions—recommendations and
notifications—are tools meant to facilitate the communication and content of others. They are not content in
and of themselves.
Our recent decision, HomeAway.com, Inc. v. City
of Santa Monica, 918 F.3d 676 (9th Cir. 2019) is of
no help to Plaintiff. There, the City of Santa Monica
required short-term vacation rentals to be licensed
and imposed liability on vacation rental hosting platforms—HomeAway.com and Airbnb—that facilitated
unlicensed short-term vacation rentals. Id. at 680. The
platforms sued, alleging, among other things, that Section 230 immunized them from liability. Id. We found
that HomeAway.com and Airbnb did not meet the second prong of the Barnes test because the Santa Monica
ordinance did not “proscribe, mandate, or even discuss
the content of the [website] listings” and required only
that the website’s transactions involve licensed properties. Id. at 683. In other words, the vacation rental
platforms did not face liability for the content of their

12a
listings; rather liability arose from facilitating unlicensed booking transactions.
Ultimate Software, therefore, satisfies the second
prong of the Barnes test.
3. Ultimate Software Published Information/Content Provided by Another
Information Content Provider
The third prong is also met because, as stated previously and as detailed in Plaintiff ’s complaint, the
content at issue was created and developed by Greer
and his drug dealer. Plaintiff ’s content “manipulation”
theory is without support in the statute and case
law. First, Plaintiff misreads Roommates.com when
she argues it holds that a website develops content if
it manipulates the content in a unique way through
content-neutral tools.
The question in Roommates.com was whether Section 230 immunized a website, which matched people
renting rooms with people looking for somewhere to
live, from claims that it violated federal and state
housing anti-discrimination laws by requiring subscribers to disclose, using dropdown menus and checkboxes, their sex, sexual orientation, and family status.
See Roommates.com, 521 F.3d at 1161-2, 1165.
We answered “no” to this question. We rested our
decision, however, on the fact that Roommates.com
affirmatively required users to disclose information
related to protected classes through discriminatory

13a
questions and answer choices. As a result, this information, especially information related to a user’s protected class, served as the focus of the registration
process and, ultimately, became the cornerstone of
each user’s online profile. Moreover, the website designed its search function to guide users through the
required discriminatory criteria. Id. at 1164, 1167. Under these set of facts, the website in Roommates.com
was clearly the developer of the discriminatory content
at issue. Id. at 1170.
In Roommates.com, we also identified the type of
conduct that does not constitute the “development” of
content under Section 230. Id. at 1169. For example, a
housing website that lets users create their own criteria for identifying and choosing potential roommates
(including criteria based on protected classes like race
or sex) in a blank text box, does not become a developer
of content if it does not require the use of that discriminatory criteria. Id. In other words, a website does not
become a developer of content when it provides neutral
tools that a user exploits to create a profile or perform
a search using criteria that constitutes a protected
class. Id. We, furthermore, concluded that “[w]here it is
very clear that the website directly participates in developing the alleged illegality—as it is clear here with
respect to [Roommates.com’s] questions, answers and
the resulting profile pages—immunity will be lost.”
However, “in cases of enhancement by . . . inference—
such as with respect to the ‘Additional Comments’ [on
Roommates.com]—[S]ection 230 must be interpreted
to protect websites not merely from ultimate liability,

14a
but from having to fight costly and protracted legal
battles.” Id. at 1174-75.
Here, Ultimate Software’s functions on Experience
Project most resemble the “Additional Comments” features in Roommates.com in that Experience Project
users, including Wesley Greer, were not required to disclose that they were looking for heroin or other illegal
drugs. Rather, users were given something along the
lines of blank text boxes in which they could post and
share experiences, questions, and answers. The recommendation and notification functions helped facilitate
this user-to-user communication, but it did not materially contribute, as Plaintiff argues, to the alleged unlawfulness of the content. Roommates.com, 521 F.3d at
1175; see also Kimzey, 836 F.3d at 1269 n.4 (the material contribution test makes a “ ‘crucial distinction between, on the one hand, taking actions (traditional to
publishers) that are necessary to the display of unwelcome and actionable content and, on the other hand,
responsibility for what makes the displayed content illegal or actionable.’ ”).
In summary, Plaintiff is unable to allege that Ultimate Software materially contributed to the content
posted on Experience Project that led to Greer’s death.
Plaintiff cannot and does not plead that Ultimate Software required users to post specific content, made suggestions regarding the content of potential user posts,
or contributed to making unlawful or objectionable
user posts. Ultimate Software is entitled to immunity
under the plain terms of Section 230 and our case law
as a publisher of third-party content.

15a
II.

Plaintiff Does Not Plead Sufficient Facts to
Show that Ultimate Software Colluded with
Drug Dealers on Experience Project

The complaint’s allegations as it relates to Plaintiff ’s “collusion” with bad actors does not establish an
independent theory of liability. Rather, Plaintiff tries,
again, to circumvent Section 230 immunity by alleging
that Ultimate Software knew or should have known
that users sold drugs on Experience Project, and it supported and protected these drug dealers through its
anonymity policies. The district court characterized
this claim well, stating “The idea is that Ultimate Software is less Match.com and more Silk Road (a notorious online platform for criminal activities, including
selling illegal drugs).”
To advance this collusion and inducement theory,
Plaintiff relies on a Washington Supreme Court decision, J.S. v. Village Voice Media Holdings, L.L.C., 184
Wash. 2d 95, 359 P.3d 714 (2015) (en banc). In Village
Voice Media, plaintiffs, minors featured in advertisements for sexual services, sued the operators of the
website Backpage.com alleging, among other things,
violations of state laws prohibiting the sexual exploitation of children. Id. at 98, 359 P.3d 714. The court
held that plaintiffs sufficiently alleged that the website
operators helped develop the illegal content and therefore were not immune from liability under Section 230.
Id. at 103, 359 P.3d 714.
Specifically, the court pointed to allegations that
Backpage.com required users to disclose certain information within its “escorts” section that encouraged the

16a
sexual exploitation of children. Id. at 102, 359 P.3d 714.
One such allegation is that Backpage.com’s “content
requirements [were] specifically designed to control
the nature and context of [escort] advertisements so
that pimps can continue to use Backpage.com to traffic
in sex, including the trafficking of children.” Id. at 10203, 359 P.3d 714. In other words, the court found that
the plaintiffs alleged enough facts such that it was
plausible to infer that Backpage.com’s content requirements—within the website’s escort section—were designed to facilitate the prostitution of children.
Here, Ultimate Software’s anonymity features
along with its public statements expressing concern for
internet privacy and detailing the burden of law enforcement information requests are not facts whose inferences, viewed in the light most favorable to Plaintiff,
plausibly allege collusion with drug dealers or other
bad actors. Today, online privacy is a ubiquitous public
concern for both users and technology companies.
These statements do not establish, on the part of Ultimate Software, antipathy to law enforcement, especially
given the corresponding statements about always supporting “proper law enforcement requests.”
Unlike the plaintiffs in Village Voice Media, Plaintiff here did not allege that Experience Project had a
section for drug-related experiences on its website with
specific content posting requirements that facilitated
illegal drug transactions. Plaintiff ’s allegation that
user anonymity equals promoting drug transactions
is not plausible. Iqbal, 556 U.S. at 678, 129 S.Ct. 1937.
The district court was right to dismiss all claims

17a
related to this supposed theory of liability because Ultimate Software is, as reasoned above, immune under
Section 230.
III. Ultimate Software Did Not Owe a Duty to
Plaintiff’s Son
Ultimate Software owed Greer no duty of care
because Experience Project’s features amounted to
content-neutral functions that did not create a risk of
harm. Plaintiff rests her “failure to warn claim” on a
misguided premise that misfeasance by Ultimate Software created a duty to Greer.
When analyzing a duty of care in the context of
third-party acts, California courts distinguish between
“misfeasance” and “nonfeasance.” Melton v. Boustred,
183 Cal. App. 4th 521, 531, 107 Cal.Rptr.3d 481 (2010).
Misfeasance is when a defendant makes the plaintiff ’s
position worse while nonfeasance is when a defendant
does not help a plaintiff. Lugtu v. Cal. Highway Patrol,
26 Cal. 4th 703, 716, 110 Cal.Rptr.2d 528, 28 P.3d 249
(2001). Misfeasance, unlike nonfeasance, creates an ordinary duty of care where none may have existed before. See id.
Ultimate Software did not make Plaintiff ’s son,
Greer, worse off because the functions Plaintiff references—recommendations and notifications—were used
regardless of the groups in which a user participated.
No website could function if a duty of care was created
when a website facilitates communication, in a contentneutral fashion, of its users’ content. See e.g., Klayman

18a
v. Zuckerberg, 753 F.3d 1354, 1359-60 (D.C. Cir. 2014)
(no special relationship between Facebook and its users). We decline to create such a relationship. Accordingly, the district was correct to dismiss Plaintiff ’s
duty to warn claim.
CONCLUSION
For the preceding reasons, we AFFIRM the district court’s order granting Defendant Ultimate Software’s motion to dismiss.

19a
2017 WL 5665670
United States District Court, N.D. California,
San Francisco Division.
Kristanalea DYROFF, Plaintiff,
v.
The ULTIMATE SOFTWARE GROUP, INC.,
Defendant.
Case No. 17-cv-05359-LB
|
Signed 11/26/2017
Attorneys and Law Firms
Sin-Ting Mary Liu, Aylstock Witkin Kreis & Overholtz
PLLC, Alameda, CA, David F. Slade, Carney Bates &
Pulliam, PLLC, Little Rock, AR, for Plaintiff.
David Eugene Russo, Shawn Adrian Toliver, Justin S.
Kim, Lewis Brisbois Bisgaard & Smith LLP, San Francisco, CA, John Joseph Moura, Gilbert Kelly Crowley &
Jennett LLP, Los Angeles, CA, for Defendant.
ORDER GRANTING MOTION TO DISMISS
Re: ECF No. 13
LAUREL BEELER, United States Magistrate Judge
INTRODUCTION
The plaintiff Kristanalea Dyroff, individually and
on behalf of her son’s estate, sued Ultimate Software
after her son, 29-year-old Wesley Greer, died from an

20a
overdose of heroin laced with fentanyl.1 Mr. Greer allegedly bought the drug from a drug dealer that he met
online through their respective posts on Ultimate Software’s (now inactive) social-network website “Experience Project.” Ms. Dyroff asserts seven state claims:
(1) Negligence, (2) Wrongful Death, (3) Premises Liability, (4) Failure to Warn, (5) Civil Conspiracy, (6) Unjust Enrichment, and (7) a violation of the Drug Dealer
Liability Act (Cal. Health & Safety Code §§ 11700, et
seq.).2 She predicates Ultimate Software’s liability on
its mining data from its users’ posts and using its proprietary algorithms to understand the posts and to
make recommendations, which in this case steered Mr.
Greer toward heroin-related discussion groups and the
drug dealer who ultimately sold him the fentanyl-laced
heroin.3 Ultimate Software removed the action from
state court based on diversity jurisdiction4 and moved
to dismiss all claims under Federal Rule of Civil Procedure 12(b)(6).5
For all claims except claim four, Ultimate Software
asserts immunity under the Communications Decency
Act, 47 U.S.C. § 230(c)(1).6 Section 230(c)(1) provides
1

Compl.—ECF No. 1-1 at 5 (¶ 8), 19 (¶ 44). Record citations
refer to material in the Electronic Case File (“ECF”); pinpoint citations are to the ECF-generated page numbers at the top of documents.
2
Id. at 26–37 (¶¶ 72–126).
3
Opposition to Motion to Dismiss—ECF No. 15 at 12.
4
Notice of Removal—ECF No. 1 at 1–3.
5
Motion to Dismiss—ECF No. 13-1.
6
Id. at 8.

21a
immunity to website operators for third-party content
on their website unless they are responsible, in whole
or in part, for the creation or development of content.
Id. §§ 230(c)(1) & (f )(3). The court dismisses the claim
because Ultimate Software is immune under § 230(c)(1).
Its “[content]-neutral tools” facilitated communication
but did not create or develop it. Fair Hous. Council of
San Fernando Valley v. Roommates.com, LLC, 521 F.3d
1157, 1167–69 (9th Cir. 2008) (en banc).
For claim four (negligent failure to warn), Ultimate Software asserts that a website has no duty to
warn its users of criminal activity by other users and
that Mr. Greer assumed the risk of the obviously dangerous activity of buying drugs from an anonymous Internet drug dealer.7 A duty to warn can arise from a
business’s “special relationship” with its customers or
from its own creation of risk. McGarry v. Sax, 158 Cal.
App. 4th 983, 995 (2008). The court holds that Ultimate
Software had no special relationship with Mr. Greer
and did not create risk through its website functionalities or its interactions with law enforcement, and thus
it had no duty to warn Mr. Greer about another user’s
criminal activity.
The court dismisses all claims without prejudice
and with leave to amend.
*

7

Id. at 18.

*

*

22a
STATEMENT8
Experience Project9 is a (now dormant) social-network site consisting of various “online communities”
or “groups” where users anonymously share their firstperson “experiences” with other users.10 Experience
Project’s founder stated, “We don’t want to know [a user’s]
real name, their phone number, what town they’re
from.” “The impetus behind this policy [of anonymity]
was to encourage users to share experiences with the
least amount of inhibition possible. The greater the anonymity, the more ‘honest’ the post. . . .”11
Thus, Experience Project allowed users to register
on the site with anonymous user names and thereafter
join or start groups based on their experiences or interests, such as “I like dogs,” “I have lung cancer,” “I’m
going to Stanford,” or “I Love Heroin,” and to post and
discuss their personal experiences and interests to
those groups.12 After a user established an account and
joined a group, the user could ask questions or answer
8

The allegations in the “Statement” are from the plaintiff ’s
complaint. See Compl.—ECF No. 1-1.
9
The plaintiff initially named Experience Project and Kanjoya,
Inc. as additional defendants. Comp.—ECF No. 1-1. In its notice
of removal, Ultimate Software explained that it acquired the website Experience Project from Kanjoya, which now is a wholly
owned subsidiary of Ultimate Software. Notice of Removal—ECF
No. 1; Stipulation—ECF No. 18. The parties then stipulated to
dismiss Experience Project and Kanjoya. Stipulation—ECF No.
18. Ultimate Software thus is the only defendant.
10
Compl.—ECF No. 1-1 at 6 (¶ 12), 8 (¶ 18).
11
Id. at 16 (¶ 36).
12
Id. at 3 (¶ 2), 8 (¶ 18), 20 (¶ 54).

23a
questions posed by other members.13 Ultimate Software,
using advanced data-mining algorithms, analyzed the
posts and other user data to glean information, including the underlying intent and emotional state of the
users.14 Ultimate Software used this information both
for its own commercial purposes (such as selling data
sets to third parties) and to steer Experience Project
users to other groups on its website through its proprietary recommendation functionality.15 It also utilized
email and other “push” notifications to alert users when
a new post or response occurred.16 As of May 2016,
the website had over sixty-seven million “experiences
shared.”17
In 2007, when he was a college student, Mr. Greer
suffered a knee injury. During his recovery, he was prescribed opioid painkillers and became addicted, first to
opioids and then to heroin.18 He began treatment in
2011, completing five separate rehab programs, but
he relapsed each time.19 By 2013, he had completed
a faith-based program in Florida, remained clean,
and continued living and working there.20 In January
2015, the program was unable to hire him, and he left
to run a halfway house. He was concerned that the
13
14
15
16
17
18
19
20

Id. at 9 (¶ 21).
Id. at 3 (¶ 2).
Id. at 3 (¶ 2) and 9 (¶ 22).
Id. at 5 (¶ 8), 20 (¶ 52), 25–26 (¶ 70).
Id. at 9 (¶ 20).
Id. at 19 (¶ 44.)
Id. (¶ 45).
Id. (¶ 46).

24a
drug-seeking environment there endangered his sobriety, and in February 2015, he moved home to Brunswick, Georgia, to live with his mother and stepfather
and help them renovate their house.21
In August 2015, Mr. Greer conducted a Google
search to find heroin, and he was directed to the defendant’s website “Experience Project.”22 He created an
account with Experience Project, purchased “tokens”
(which enabled him to post questions to other users),
and posted to a group titled “where can i score heroin
in jacksonville, fl.”23
On August 17, 2015, Experience Project sent an
email to Mr. Greer notifying him that “Someone posted
a new update to the question ‘where can i score heroin
in jacksonville, fl,’ ” and providing a hyperlink and a
URL directing him to the update.24 This update (or a
similar one) alerted Mr. Greer that another Experience Project user, Hugo Margenat-Castro, an Orlandobased drug dealer, had responded to Mr. Greer’s post.
Mr. Greer was able to obtain his phone number
through Experience Project.25 Mr. Greer called Mr.
Margenat-Castro, and in the early hours of August 18,
2015, drove from Brunswick, Georgia, to Orlando, Florida, where he bought fentanyl-laced heroin from Mr.

21
22
23
24
25

Id. (¶¶ 47–48).
Id. at 20 (¶ 49).
Id. at 20 (¶¶ 49–51).
Id. at 20 (¶ 52).
Id. at 20–21(¶¶ 53–55).

25a
Margenat-Castro. He then returned to Brunswick.26
On August 19, 2015, Mr. Greer died from fentanyl toxicity.27
In numerous earlier posts on Experience Project,
Mr. Margenat-Castro offered heroin for sale in groups
such as “I love Heroin” and “heroin in Orlando.” He actually sold heroin mixed with fentanyl (“a fact that he
hid in his posts” and “misrepresented as heroin”). Fentanyl is a synthetic opioid that is fifty times stronger
than heroin.28
Before Mr. Greer’s death, Mr. Margenat-Castro
regularly used Experience Project to sell a mixture of
heroin and fentanyl. Based on his activity on Experience Project, law-enforcement agencies conducted “controlled buys” of heroin from Mr. Margenat-Castro on
March 31, 2015, and June 24, 2015, and Mr. MargenatCastro was arrested on April 1, 2015, and June 25,
2015, for possession with intent to sell fentanyl, among
other drugs, stemming from his sale of drugs on Experience Project’s website.29 Officers made another controlled buy from Mr. Margenat-Castro on September 3,
2015. They tied him to his Experience Project handle
“Potheadjuice,” confirmed through a toxicology report
that the substance contained fentanyl, and obtained an
arrest warrant on October 7, 2015.30 In his March 2017
26
27
28
29
30

Id. at 20–21 (¶¶ 54–55, 57).
Id. at 21 (¶ 57).
Id. at 5 (¶¶ 7–8), 20 (¶ 54), 22–23 (¶ 61).
Id. at 22–23 (¶¶ 61, 63).
Id. at 24 (¶ 67).

26a
plea agreement, Mr. Margenat-Castro estimated that
he sold ten bags of fentanyl-laced heroin every day
(seven days a week) between January 2015 and October 2015 via Experience Project. He estimated selling
roughly 1,400 bags of heroin laced with fentanyl.31 Ms.
Dyroff contends that by August 17, 2015, when her son
bought the drugs from Mr. Margenat-Castro, Ultimate
Software had actual or constructive knowledge of Mr.
Margenat-Castro’s trafficking fentanyl-laced heroin on
Experience Project.32
Ms. Dyroff alleges that Ultimate Software operated Experience Project in an unlawful manner that
facilitated extensive drug trafficking between drug
dealers and drug buyers, even providing “reviews” of
drug dealers who trafficked on Experience Project’s
website.33 Specifically, she alleges that Ultimate Software:
(1) allowed its Experience Project users to
anonymously traffic in illegal deadly narcotics;
(2) allowed users to create groups dedicated
to the sale and use of such illegal narcotics;
(3) steered users to “additional” groups dedicated to the sale of such narcotics (through
the use of its advanced data-mining algorithms to manipulate and funnel vulnerable

31
32
33

Id. at 21–22 (¶ 58), 23–24 (¶ 64).
Id. at 22–24 (¶¶ 61, 63, 66).
Id. at 13 (¶ 31), 25–26 (¶ 70), 26–27 (¶ 73), 27 (¶ 75).

27a
individual users to harmful drug trafficking
groups on Experience Project’s website);
(4) sent users emails and other push notifications of new posts in those groups related to
the sale of deadly narcotics;
(5) allowed Experience Project users to remain active account holders despite (a) the
users’ open drug trafficking on Experience
Project’s website, (b) Ultimate Software’s knowledge of this (including knowledge acquired
through its proprietary data-mining technology, which allowed it to analyze and understand its users’ drug-trafficking posts) and
(c) multiple law-enforcement actions against
users related to their drug dealing on the
Experience Project website;
(6) exhibited general and explicit antipathy
towards law enforcement’s efforts to curb illegal activity on Experience Project’s website;34
and
(7) received numerous information requests,
subpoenas, and warrants from law enforcement and should have known about drug trafficking on its site by its users, including—by
the time of her son’s death—Mr. MargenatCastro’s sales of fentanyl-laced heroin.35
*

34
35

*

*

Id. at 26–27 (¶ 73), 3–4 (¶¶ 2–3), 16–17 (¶ 38).
Id. at 4 (¶ 5), 17 (¶ 39), 24 (¶ 65), 25 (¶ 70).

28a
GOVERNING LAW
A complaint must contain a “short and plain statement of the claim showing that the pleader is entitled
to relief ” to give the defendant “fair notice” of what the
claims are and the grounds upon which they rest. Fed.
R. Civ. P. 8(a)(2); Bell Atl. Corp. v. Twombly, 550 U.S.
544, 555 (2007). A complaint does not need detailed factual allegations, but “a plaintiff ’s obligation to provide
the ‘grounds’ of his ‘entitlement to relief ’ requires more
than labels and conclusions, and a formulaic recitation
of the elements of a cause of action will not do. Factual
allegations must be enough to raise a claim for relief
above the speculative level. . . .” Id. (internal citations
omitted).
To survive a motion to dismiss, a complaint must
contain sufficient factual allegations, which when accepted as true, “ ‘state a claim to relief that is plausible
on its face.’ ” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Twombly, 550 U.S. at 570). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Id. “The plausibility standard is not akin to a
‘probability requirement,’ but it asks for more than a
sheer possibility that a defendant has acted unlawfully.” Id. (quoting Twombly, 550 U.S. at 557). “Where a
complaint pleads facts that are ‘merely consistent
with’ a defendant’s liability, it ‘stops short of the line
between possibility and plausibility of “entitlement to
relief.” ’ ” Id. (quoting Twombly, 550 U.S. at 557).

29a
If a court dismisses a complaint, it generally
should give leave to amend unless “the pleading could
not possibly be cured by the allegation of other facts.”
Cook, Perkiss & Liehe, Inc. v. N. Cal. Collection Serv.
Inc., 911 F.2d 242, 247 (9th Cir. 1990). A court need not
grant leave to amend if the court determines that permitting a plaintiff to amend would be futile. See e.g.,
Beckman v. Match.com, LLC, 668 Fed. Appx. 759, 759
(9th Cir. 2016) (district court did not abuse its discretion when it determined that amendment of claims
[barred by § 230 of the Communications Decency Act]
would be futile) (citing Saul v. United States, 928 F.2d
829, 843 (9th Cir. 1991)); Rutman Wine Co. v. E. & J.
Gallo Winery, 829 F.2d 729, 738 (9th Cir. 1987).
*

*

*

ANALYSIS
The next sections address (1) whether Ultimate
Software has § 230(c)(1) immunity for all claims except
claim four, the failure-to-warn claim, and (2) whether
Ultimate Software had a duty to warn Mr. Greer that
Mr. Margenat-Castro was selling fentanyl-laced heroin.
1. Section 230(c)(1) Immunity
For all claims except claim four, Ultimate Software asserts that as a website operator, it is immune
from liability under the Communications Decency Act
(“CDA”), 47 U.S.C. § 230(c)(1).36 The CDA provides that
36

Motion to Dismiss—ECF No. 13-1 at 8–15.

30a
website operators are immune from liability for thirdparty “information” (such as the posts here) unless the
website operator “is responsible, in whole or in part, for
the creation or development of the information.” Id.
§§ 230(c)(1) & (f )(3). The plaintiff contends that Ultimate Software developed third-party information (or
content) here by mining data from its users’ posts and
using its proprietary algorithms to understand the
posts and to make recommendations, which in this
case steered Mr. Greer toward heroin-related discussions and the drug dealer who sold him fentanyl-laced
heroin.37 The court holds that Ultimate Software is immune under § 230(c)(1). Only third parties posted content, and without more, Ultimate Software’s providing
content-neutral tools to facilitate communication does
not create liability. See Roommates.com, 521 F.3d 1157
at 1167–69.
In the next sections, the court provides an overview of the CDA and applies the Act to Ms. Dyroff ’s
claims.
1.1 Overview Of the
Communications Decency Act
Under the CDA, (1) website operators generally
have immunity from third-party content posted on their
websites, but (2) they are not immune if they create
or develop information, in whole or in part. 47 U.S.C.
§§ 230(c)(1) & (f )(3).

37

Opposition to Motion to Dismiss—ECF No. 15 at 12.

31a
1.1.1

Immunity For Third-Party Content

First, website operators generally are immune
from liability from third-party posts. Id. Under the
CDA, “[n]o provider or user of an interactive computer
service shall be treated as the publisher or speaker of
any information provided by another information content provider.” 47 U.S.C. § 230(c)(1) (emphasis added).
Moreover, “no [civil] liability may be imposed under any
State or local law that is inconsistent” with § 230(c)(1).
Id. § 230(e)(3).
The most common “interactive computer services”
are websites. Roommates.com, 521 F.3d at 1162 n.6.38
The CDA defines an “information content provider” as
“any person or entity that is responsible, in whole or in
part, for the creation or development of information
provided through the Internet or any other interactive
computer service.” 47 U.S.C. § 230(f )(3).
In general, then, § 230(c)(1) “protects websites from
liability for material posted on the[ir] website[s] by
someone else.” Doe v. Internet Brands, Inc., 824 F.3d
846, 850 (9th Cir. 2016). More specifically, § 230(c)(1)
“ ‘immunizes providers of interactive computer services against liability arising from content created by
third parties.’ ” Kimzey v. Yelp! Inc., 836 F.3d 1263, 1265
(2016) (quoting Roommates.Com, 521 F.3d at 1162).
38

The definition “interactive computer service” is “any information service, system, or access software provider that provides
or enables computer access by multiple users to a computer
server, including specifically a service or system that provides access to the Internet and such systems operated or services offered
by libraries or educational institutions.” 47 U.S.C. § 230(f )(2).

32a
Section 230(c) thus “overrides the traditional treatment of publishers, distributors, and speakers under
statutory and common law.” Batzel v. Smith, 333 F.3d
1018, 1026 (9th Cir. 2003). “The prototypical service
qualifying for [CDA] immunity is an online messaging
board (or bulletin board) on which Internet subscribers
post comments and respond to comments posted by
others.’ ” Kimzey, 836 F.3d at 1266 (quoting FTC v. Accusearch Inc., 570 F.3d 1187, 1195 (10th Cir. 2009)).
1.1.2 No Immunity for Websites
That Create or Develop Content
But if a website operator “is responsible, in whole
or in part, for the creation or development of information” on its website, then it is an “information content provider,” and it does not have immunity from
liability for that information. 47 U.S.C. §§ 230(c)(1) &
(f )(3); Roommates.com, 521 F.3d at 1165. As the Ninth
Circuit has explained, the CDA “does not declare ‘a
general immunity from liability deriving from thirdparty content.’ ” Internet Brands, 824 F.3d at 852 (quoting Barnes v. Yahoo!, Inc., 570 F.3d 1096, 1100 (9th Cir.
2009)). Nor was it “meant to create a lawless no-man’s
land on the Internet.” Roommates.com, 521 F.3d at
1164.
In Roommates.com, the Ninth Circuit considered
whether Roommates.com created content, found that it
did (at least “in part”), and concluded that it was not
entitled to § 230(c)(1) immunity for the content that it
created. 521 F.3d at 1165. Roommates.com operated a

33a
website that matched people renting rooms to people
looking for a place to live. Id. at 1161. It required
subscribers to create profiles and answer questions—
about themselves and preferences in roommates—regarding criteria including sex, sexual orientation, and
whether they would bring children to the household.
Id. at 1161. The Fair Housing Councils of the San Fernando Valley and San Diego sued Roommates.com, alleging that it violated the federal Fair Housing Act and
California housing-discrimination laws. Id. at 1162.
Roommates.com asserted that it had immunity under
§ 230(c)(1).
In its en banc decision, the Ninth Circuit held that
Roommates.com was not immune for eliciting discriminatory preferences that violated federal and state fairhousing laws:
By requiring subscribers to provide the information as a condition of accessing its service,
and by providing a limited set of pre-populated
answers, Roommate39 [became] much more
than a passive transmitter of information provided by others; it [became] the developer, at
least in part, of that information. And section
230 provides immunity only if the interactive
computer service does not ‘creat[e] or develop[ ]’
the information ‘in whole or in part.’ ”
Id. at 1166 (citing 47 U.S.C. § 230(f )(3)). Accordingly,
the court held, “the fact that [third-party website]
39

The opinion refers to “Roommate” (as opposed to the plural
Roommates, which is the spelling in the case caption and in the
company’s name Roommates.com).

34a
users are information content providers does not preclude [the website itself ] from also being an information content provider by helping ‘develop’ at least
‘in part’ the information” at issue. Roommates.com, 521
F.3d at 1165 (emphasis in the original). This means
that
[a] website operator can be both a service provider and a content provider: If it passively
displays content that is created entirely by
third parties, then it is only a service provider
with respect to that content. But as to content
that it creates itself, or is ‘responsible, in
whole or in part’ for creating or developing,
the website is also a content provider.”
Id. at 1162 (quoting 47 U.S.C. § 230(f )(3)). “Thus, a
website may be immune from liability for some of the
content it displays to the public but be subject to liability for other content.” Id. at 1162–63. As the court
summed up, “[t]he CDA does not grant immunity for
inducing third parties to express illegal preferences.
Roommate’s own acts—posting the questionnaire and
requiring answers to it—are entirely its doing and
thus section 230 of the CDA does not apply to them.
Roommate is entitled to no immunity.” Id. at 1165.
By contrast, the court immunized Roommates.com
from liability for statements that subscribers independently displayed in an “Additional Comments” section of their profile. Id. at 1173–74. Roommates.com
prompted subscribers to “personalize your profile by
writing a paragraph or two describing yourself and
what you are looking for in a roommate.” Id. at 1173.

35a
“[S]ubscribers provide[d] a variety of provocative and
often very revealing answers,” such as their preferences for roommates’ sex, sexual orientation, and religion. Id. Roommates.com published the statements as
written, did not provide guidance about content, and
did not “urge subscribers to input discriminatory preferences.” Id. at 1173–74. The court held that Roommates.com was “not responsible, in whole or in part, for
the development of this content, which comes entirely
from subscribers and is passively displayed by Roommate.” Id. at 1174. “Without reviewing every post,
Roommate would have no way to distinguish unlawful
discriminatory preferences from perfectly legitimate
statements.” Id. Moreover, there could be no “doubt
that this information was tendered to Roommate for
publication online.” Id. “This,” the Ninth Circuit held,
“is precisely the kind of situation for which section 230
was designed to provide immunity.” Id.
As an illustration of the difference between publishing third-party content (entitling the website operator to immunity) and developing content (resulting in no immunity), the Ninth Circuit distinguished
Roommates.com’s search function from generic search
engines. Id. at 1167. Roommates.com steered users
based on discriminatory criteria, thereby limiting search
results and forcing users to participate in its discriminatory process. Id. By contrast, generic search engines
such as Google, Yahoo!, and MSN “do not use unlawful
criteria to limit the scope of the searches[,] . . . [are not]
designed to achieve illegal ends [unlike Roommates.com’s
alleged search function, and thus] . . . play no part in

36a
the ‘development’ of any unlawful searches.” Id. at
1167. The court concluded that “providing neutral tools
to carry out what may be unlawful or illicit [activities]
does not amount to ‘development’ for purposes of the
immunity exception.” Id. at 1168–69.
1.1.3 Three-Element Test for
Immunity Under § 230(c)(1)
Separated into its elements, § 230(c)(1) protects
from liability “ ‘(1) a provider or user of an interactive
computer service (2) whom a plaintiff seeks to treat,
under a state law cause of action, as a publisher or
speaker (3) of information provided by another information content provider [here, Mr. Margenat-Castro].’ ”
Kimzey, 836 F.3d at 1268 (quoting Barnes, 570 F.3d at
1100–01).
1.2

Application Of the Three-Element
Test To Ms. Dyroff ’s Claims

1.2.1 Is Ultimate Software a Provider
of an Interactive Computer Service?
The first element is whether Experience Project is
an “interactive computer service.” It is undisputed that
it is.40 See Roommates.com, 521 F.3d at 1162 (websites
are the most common “interactive computer services”).

40

See, e.g., Compl.—ECF No. 1-1 at 8 (¶ 18).

37a
1.2.2 Does the Plaintiff Seek To
Treat Ultimate Software as a Publisher?
The second element is whether Ms. Dyroff seeks
to treat Ultimate Software as a speaker or publisher.
Her claims predicate Ultimate Software’s liability on
its tools and functionalities. More specifically, she alleges that Ultimate Software creates or develops information by mining data from its users’ posts, using
its proprietary algorithms to analyze posts and recommend other user groups, and—in this case—steering Mr. Greer to heroin-related discussion groups and
(through its emails and push notifications) to the drug
dealer who sold him the fentanyl-laced heroin.41
The issue here is whether plaintiffs can plead
around § 230(c)(1) immunity by basing their claims on
the website’s tools, rather than the website operator’s
role as a publisher of the third-party content. The
Ninth Circuit has held that what matters is whether
the claims “inherently require[ ] the court to treat the
defendant as the ‘publisher or speaker’ of content provided by another.” Barnes, 570 F.3d at 1102. If they do,
then § 230(c)(1) precludes liability. Id.; accord Airbnb,
Inc. v. City & County of San Francisco, 217 F.Supp.3d
1066, 1074 (2016) (citing Barnes, 570 F.3d at 1102).
In similar cases, courts have rejected plaintiffs’ attempts to plead around immunity by basing liability
on a website’s tools. See, e.g., Gonzalez v. Google, Inc.,
No. 16-cv-03282-DMR, 2017 WL 4773366, at *10–11
(N.D. Cal. October 23, 2017) (rejecting the plaintiffs’
41

Opposition to Motion to Dismiss—ECF No. 15 at 12.

38a
argument that claims were not based [sic] Google’s
publishing third-party content from ISIS but instead
were based on Google’s “provid[ing] ISIS followers with
access to powerful tools and equipment to publish their
own content”); Fields v. Twitter, 217 F. Supp. 3d 1116,
1121–22 (N.D. Cal. 2016), appeal docketed, No. 1617165 (9th Cir. Nov. 25, 2016) (rejecting the plaintiffs’
argument that their claims were not based on Twitter’s
publishing third-party content by ISIS but instead
were based on Twitter’s allowing ISIS members to sign
up for Twitter accounts).
The court holds that Ms. Dyroff ’s claims at their
core seek liability for publishing third-party content.
Element two of the § 230(c)(1) test is satisfied.
1.2.3 Is the Harmful
Content “Third-Party Content”?
The third element is whether the content is thirdparty content. A third party—Mr. Margenat-Castro—
posted on Experience Project. The issue is whether his
posts and other allegedly harmful content are thirdparty content, which means that § 230(c)(1) bars the
claims against Ultimate Software, or whether Ultimate Software “is responsible, in whole or in part, for
the creation or development of the information,” which
means that § 230(c)(1) does not bar the claims. 47
U.S.C. § 230(c)(1) & (f )(3).
Ms. Dyroff contends that the court should deem
Ultimate Software to have “developed” the harmful
content, at least in part, for two reasons: (1) its tools,

39a
design, and functionality abetted the content, at least
in part, by recommending heroin-related discussions
and steering Mr. Greer to Mr. Margenat-Castro’s posts;
and (2) Ultimate Software is not merely a passive conduit for its users’ posts because it knew that Experience Project was an online market for drug dealers and
users, and it shielded the bad actors through its anonymity policies and antipathy to law enforcement.42
1.2.3.1 Ultimate Software’s
Use of Tools to Develop Content
Ms. Dyroff contends that a website does not need
to co-author a user’s posts to “develop” the content
and thus be responsible for the posts.43 See 47 U.S.C.
§ 230(f)(3). She asserts that a website “develops” content otherwise created by third-party users (and loses
immunity) when it “materially manipulates that content, including by passively directing its creation or by
improperly using the content, after the fact.”44 “This
manipulation can take myriad forms, including guiding the content’s generation, either through posting
guidelines that signal or direct the poster, content requirements for posts, or even post-hoc use of content
that was generated in whole or in party by a third
party.”45

42
43
44
45

Id. at 13–23.
Id. at 17.
Id. at 13 (citing Roommates.com, 521 F.3d at 1168).
Id. (citations omitted).

40a
Her specific allegations about Ultimate Software’s
development of information are as follows. Ultimate
Software used “data mining” techniques and “machine
learning” algorithms and tools to collect, analyze, and
“learn[ ] the meaning and intent behind posts” in order
to “recommend” and “steer” vulnerable users, like her
son, to forums frequented by drug users and dealers.46
By identifying interested users and using its “recommendation functionality” to steer them to drug-related
“groups” or “online communities,” Ultimate Software
kept the users “engaged on the site” for Ultimate Software’s financial gain (through online ad revenues,
gathering more valuable user data, and other means).47
This system—combined with Experience Project’s anonymous registration and its email-notification functionality that alerted users when groups received a new
post or reply—“created an environment where vulnerable addicts were subjected to a feedback loop of continual entreaties to connect with drug dealers.”48
The ordinary rule is that Ultimate Software is immune from liability for third-party content on its website unless it is “responsible, in whole or in part, for
the creation or development of information.” 47 U.S.C.
46

Id. at 7, 9–10 (citing Compl.—ECF No. 1-1 at 9–12 (¶¶ 22–
23, 27–28)), 18–19 (citing Compl.—ECF No. 1-1 at 5 (¶¶ 7–8), 11–
19 (¶¶ 26–42), 20 (¶¶ 52–53), 25–26 (¶¶ 70–71)).
47
Id. at 7, 17–19; Compl.—ECF No. 1-1 at 3 (¶ 2), 4–5 (¶¶ 6–
8), 9–12 (¶¶ 22–23, 25, 27–29), 18–19 (¶ 42), 22 (¶ 59), 25–26
(¶¶ 70–71), 27 (¶ 75), 30 (¶ 90), 32 (¶ 96), 34 (¶ 107), 35 (¶ 114),
36 (¶ 116).
48
Id. at 10 (citing Compl.—ECF No. 1-1 at 11–16 (¶¶ 26–
35)).

41a
§§ 230(c)(1) & (f )(3). Here, only third parties posted
information on Experience Project, and the website operator did not solicit unlawful information or otherwise create or develop content. Ultimate Software is
not an “information content provider” merely because
its content-neutral tools (such as its algorithms and
push notifications) steer users to unlawful content.
Roommates.com, 521 F.3d at 1167. The following points
support this conclusion.
First, making recommendations to website users
and alerting them to posts are ordinary, neutral functions of social-network websites. To support her contrary contention that Ultimate Software’s functionalities
create or develop information, Ms. Dyroff relies on
Roommates.com and Anthony v. Yahoo! Inc., but she
does not allege any facts comparable to the facts in
those cases.49
In Roommates.com, the website operator created a
questionnaire, provided a limited set of pre-populated
(and unlawful) answers as a condition of accessing the
website and its services, and steered users based on
the pre-populated answers. 521 F.3d at 1166–67. By
these acts, Roommates.com “[became] much more than
a passive transmitter of information provided by others; it [became] the developer, at least in part, of that
information. And section 230 provides immunity only
if the interactive computer service does not ‘creat[e] or
49

Id. at 13–16 (citing Roommates.com, 521 F.3d at 1161–62,
1165, 1167–68, and Anthony v. Yahoo!, 421 F. Supp. 2d 1257,
1262–63 (N.D. Cal. 2006)).

42a
develop[ ]’ the information ‘in whole or in part.’ ” Id. at
1166 (quoting 47 U.S.C. § 230(f )(3)). By contrast, here,
Ultimate Software did not solicit unlawful content
from its third-party users and merely provided contentneutral social-network functionalities—recommendations and notifications about posts. “Providing neutral
tools for navigating websites is fully protected by CDA
immunity, absent substantial affirmative conduct on
the part of the website creator promoting the use of
such tools for unlawful purposes.” Id. at 1174 n.37;
accord Gonzalez, 2017 WL 4773366, at *11 (rejecting
claim that Google was liable because YouTube’s website “functionality” purportedly facilitated ISIS’s communication of its message, which resulted in great
harm); Cohen v. Facebook, Inc., 252 F. Supp. 3d 140, 158
(E.D.N.Y. May 18, 2017) (rejecting claim that Facebook
provided a tool to support terrorist organizations);
Fields, 217 F. Supp. 3d 1120–23 (rejecting claim that
Twitter provided ISIS with material support by permitting it to sign up for accounts). Ms. Dyroff does
not plausibly allege that Ultimate Software “promoted
the use of [its neutral] tools for unlawful purposes.”
Roommates.com, 521 F.3d at 1174 n.37.
Similarly, Ms. Dyroff relies on Anthony v. Yahoo!,
but does not allege facts comparable to those in that
case. Yahoo! allegedly created fake user profiles and
sent them—along with actual user profiles of former
subscribers—to current website users to try to persuade them to renew their lapsed subscriptions to Yahoo’s online dating service. 421 F. Supp. 2d at 1262.
Assuming the allegations to be true for its Rule

43a
12(b)(6) inquiry, the court held that Yahoo! was not immune under § 230(c)(1) for two reasons. Id. First, Yahoo! created content in the form of the false profiles
and thus was an “information content provider.” Id. at
1262–63. Second, with actual knowledge of the false
profiles—including those of former users—Yahoo! used
the content to (allegedly) commit fraud and thus was
responsible for its misrepresentations. Id. (collecting
cases on § 230(c)(1) immunity). By contrast, here, Ultimate Software did not create or use unlawful content
and merely provided its neutral social-network functionalities.
Second, it is the users’ voluntary inputs that create the content on Experience Project, not Ultimate
Software’s proprietary algorithms. See, e.g., Kimzey,
836 F.3d at 1268–70 (Yelp!’s “star-rating system is best
characterized as the kind of ‘neutral tool[ ]’ operating
on ‘voluntary inputs’ that we determined that does not
amount to content development or creation in Roommates.com, 521 F.3d at 1172.”). Moreover, even if a tool
“ ‘facilitates the expression of [harmful or unlawful] information,’ ” it is considered neutral “so long as users
ultimately determine what content to post, such that
the tool merely provides ‘a framework that could be
utilized for proper or improper purposes.’ ” Goddard v.
Google, Inc., 640 F. Supp. 2d 1193, 1195 (N.D. Cal.
2009) (rejecting claim that Google’s “Keyword Tool”—
which provides options that advertisers can adopt or
reject at their discretion—created liability for subsequent postings by the advertisers of false or misleading
advertisements) (citing Roommates.com, 521 F.3d at

44a
1172); Carafano, 339 F.3d at 1121, 1124; see also Klayman v. Zuckerberg, 753 F.3d 1354, 1358 (D.C. Cir. 2014)
(“a website does not create or develop content when it
merely provides a neutral means by which third parties can post information of their own independent
choosing online”).
Third, the result holds even when a website collects
information about users and classifies user characteristics. The website is immune, and not an “information
content provider,” as long as users generate all content.
Carafano, 339 F.3d at 1121, 1124 (online dating site
used questionnaires to collect information about members; “the fact that [the site] classifies user characteristics into discrete categories and collects responses to
specific essay questions does not transform the [site]
into a ‘developer’ of the ‘underlying misinformation.’ ”).
The court follows these cases and holds that the
Experience Project website’s alleged functionalities—
including its user anonymity, algorithmic recommendations of related groups, and the “push” e-mail notification of posts and responses—are content-neutral
tools. Roommates.Com, 521 F.3d at 1168–69. They do
not make Ultimate Software an “information content
provider” that “is responsible, in whole or in part, for
the creation or development of information provided
through the Internet or any other interactive computer
service,” even if the tools were used to facilitate unlawful activities on the site. See 47 U.S.C. § 270(f )(3);
Roommates.com, 521 F.3d at 1174 n.37; Carafano, 339
F.3d at 1123. In sum, Ultimate Software is immune

45a
under § 230(c)(1) as a publisher of content created entirely by third-party users.
1.2.3.2 Online Market For Drug
Trafficking and Shielding Bad Actors
Ms. Dyroff contends Ultimate Software knew or
should have known that users sold drugs on Experience Project, and it shielded bad actors from the consequences of the drug dealing through its anonymity
policies and antipathy to law-enforcement requests.50
The idea is that Ultimate Software is less Match.com
and more Silk Road (a notorious online platform for
criminal activities, including selling illegal drugs). As
evidence of Ultimate Software’s intent to shield bad actors from law-enforcement efforts, the complaint cites
Ultimate Software’s March 2016 public statement discussing its reasons for suspending the Experience Project website.
From day one, the privacy of our users has
been paramount and we have never allowed
names, phone numbers, or addresses. This approach bucked every trend, and challenged
our ability to build an advertising-based business, but we passionately believe it provided
the foundation for some of the most meaningful relationships imaginable . . . But there is
no denying that the way people expect to use
social media today is markedly different . . .
and as the primary use has moved from web
50

42).

Id. at 18; see also Compl.—ECF No. 1-1 at 17–19 (¶¶ 39–

46a
to mobile, our hallmark attributes like longform stories are not aligned.
But, there are deeper, and more troubling
trends than formats. Online anonymity, a core
part of EP, is being challenged like never before. Governments and their agencies are
aggressively attacking the foundations of internet privacy with a deluge of information
requests, subpoenas, and warrants. We, of
course, always support proper law enforcement efforts, but the well-documented potential for even abuse, even if unintentional, is
enormous and growing.51
The complaint’s allegations do not establish a theory of liability. The statement manifests a concern with
Internet privacy that has been widespread in the technology sector and does not establish antipathy to law
enforcement, especially given the statement about
supporting “proper law enforcement requests.”
Moreover, as the analysis in the last section establishes, Ultimate Software’s functionalities are neutral
tools that do not transform Ultimate Software into an
“information content provider,” even if the tools were
used to facilitate unlawful activities on the site. 47
U.S.C. § 270(f )(3); Roommates.com, 521 F.3d at 1174
n.37; Barnes, 570 F.3d at 1103; Gonzalez, 2017 WL
4773366, at *10. Ultimate Software’s policy about anonymity may have allowed illegal conduct, and the neutral tools facilitated user communications, but these
website functionalities do not “create” or “develop”
51

Compl.—ECF No. 1-1 at 17–18 (¶ 41) (emphasis omitted).

47a
information, even in part. 47 U.S.C. § 270(f )(3); Roommates.com, 521 F.3d at 1174 n.37; Carafano, 339 F.3d
at 1123. And they do not show that Ultimate Software
engaged in “substantial affirmative conduct . . . promoting the use of [the] tools for unlawful purposes.”
Roommates.com, 521 F.3d at 1167–68, 1174 n.37. Liability requires more than “neutral tools.” Id.
As the Ninth Circuit concluded in Roommates.
com: “
Websites are complicated enterprises, and
there will always be close cases where a clever
lawyer could argue that something the website operator did encouraged the illegality.
Such close cases, we believe, must be resolved
in favor of immunity, lest we cut the heart out
of section 230 by forcing websites to . . . fight[ ]
off claims that they promoted or encouraged—
or at least tacitly assented to—the illegality of
third parties. Where it is very clear that the
website directly participates in developing the
alleged illegality . . . [,] immunity will be lost.
But in cases of enhancement by implication or
development by inference . . . [,] section 230
must be interpreted to protect websites not
merely from ultimate liability, but from having to fight costly and protracted legal battles.
521 F.3d at 1174–75.
Because Ultimate Software is immune under
§ 230(c)(1), the court dismisses all claims except claim
four.

48a
2. Count Four: Failure to Warn
In claim four, Ms. Dyroff contends that Ultimate
Software had a duty to warn Mr. Greer that Mr.
Margenat-Castro was selling fentanyl-laced heroin via
the Experience Project website.52 Ultimate Software
moves to dismiss the claim on the grounds that (1) it
had no “special relationship” with Mr. Greer or created
any risks that gave rise to a duty to warn him, and
(2) Mr. Greer assumed the risk of buying drugs from
an anonymous Internet drug dealer.53 The CDA does
not preclude a failure-to-warn claim. Internet Brands,
824 F.3d at 849–54.
The next sections address (1) whether Ultimate
Software had a “special relationship” with Mr. Greer
that gave rise to a duty to warn, (2) whether Ultimate
Software created a risk that gave rise to a duty to
warn, and (3) whether the assumption-of-risk doctrine
bars recovery.
2.1

Duty to Warn: Special Relationship—
Nonfeasance (Failure to Act)

The first issue is whether Ultimate Software had
a duty to warn Mr. Greer that Mr. Margenat-Castro
was selling fentanyl-laced heroin because—like any
brick-and-mortar business—it had a “special relationship” with him that created that duty.
52

Motion to Dismiss—ECF No. 13-1 at 18–21; Reply—ECF
No. 16 at 18–20.
53
Id.

49a
The California Supreme Court has not addressed
whether a website has a special relationship with its
users that gives rise to a duty to warn them of dangers.
The court’s task thus is to “predict how the state high
court would resolve” the issue. Giles v. Gen. Motors
Acceptance Corp., 494 F.3d 865, 872 (9th Cir. 2007)
(quotation omitted). For guidance, the court looks to
decisions in the state’s intermediate appellate courts
and other jurisdictions. Id.
The elements of a negligence claim are (1) the
existence of a duty to exercise due care, (2) breach of
that duty, (3) causation, and (4) damages. Merrill v.
Navegar, Inc., 28 P.3d 116, 139 (Cal. 2001). A duty to
exercise due care is an “obligation to conform to a certain standard of conduct for the protection of others
against unreasonable risks.” McGarry v. Sax, 158 Cal.
App. 4th 983, 994 (2008) (quotation omitted).
“ ‘The existence of a legal duty to use reasonable
care in a particular factual situation is a question of
law for the court to decide.’ ” McGarry, 158 Cal. App.
4th at 994 (quoting Adams v. City of Fremont, 68 Cal.
App. 4th 243, 265 (1998)); Thompson v. County of Alameda, 27 P.2d 728, 732 (Cal. 1980); Vasquez, 118 Cal.
App. 4th 269, 279 (2004) (Imposing a duty is “ ‘an expression of policy considerations leading to the legal
conclusion that a plaintiff is entitled to a defendant’s
protection.’ ”) (quoting Ludwig v. City of San Diego, 65
Cal. App. 4th 1105, 1110 (1998)); accord Tarasoff v. Regents of Univ. of California, 551 P.2d 334, 342 (Cal.
1976) (“legal duties are not discoverable facts of nature, but merely conclusory expressions that, in cases

50a
of a particular type, liability should be imposed for
damage done”).
Under California law, if a person has not created a
danger, then generally he has no duty to come to the
aid of another person (a victim) absent a relationship
that gives rise to a duty to protect. Zelig v. County of
Los Angeles, 45 P.3d 1171, 1182 (Cal. 2002); accord
McGarry, 158 Cal. App. 4th at 995. The “special relationship” can be between the person and a third party
that imposes a duty to control the third party’s conduct. Zelig, 45 P.3d at 1183. Or it can be a special relationship between the person and the foreseeable victim
of the third party’s conduct that requires the person to
protect the victim. Id.; accord Tarasoff, 551 P.2d at 342.
The “special relationship” giving rise to a duty to
protect derives “from the common law’s distinction between misfeasance and nonfeasance, and its reluctance to impose liability for the latter.” Zelig, 45 P.3d
at 1183 (quotation omitted). Nonfeasance is a failure
to act. Weirum v. RKO Gen., Inc., 539 P.2d 36, 41 (Cal.
1975). “Misfeasance exists when the defendant is responsible for making the plaintiff ’s position worse, i.e.,
defendant has created a risk.” Id. With misfeasance,
the question of duty is governed by the ordinary-care
standard for negligence. Lugtu v. California Highway
Patrol, 26 Cal. 4th 703, 716 (2001).
In sum, a “special relationship” can create a duty
to act even when one otherwise would not have such a
duty. Zelig, 45 P.3d at 1183. Ultimate Software thus
can be responsible for its nonfeasance (its failure to

51a
act) if (1) it had a special relationship with a thirdparty actor and thus had a duty to control that actor,
or (2) it had a special relationship with Mr. Greer and
thus owed him a duty to protect him. Id. The plaintiff
argues that like any business, Ultimate Software has
a “special relationship” with its customers that creates
a duty to warn them of known risks.54
Courts commonly involve the special-relationship
doctrine “ ‘in cases involving the relationship between
business proprietors such as [landlords,] shopping centers, restaurants, and bars, and their tenants, patrons,
or invitees.’ ” McGarry, 158 Cal. App. 4th at 995 (quoting Delgado v. Trax Bar & Grill, 113 P.3d 1159, 1165
(Cal. 2005)). “A business owner may have an affirmative duty to ‘control the wrongful acts of third persons
which threaten invitees where the [business owner]
has reasonable cause to anticipate such acts and the
probability of injury resulting therefrom.’ ” Id. (citing
Taylor v. Centennial Bowl, Inc., 416 P.2d 793 (1966)).
“The doctrine also extends to other types of special relationship[s] . . . including those between common carriers and passengers, and mental health professionals
and their patients.” Id. (quoting Tarasoff, 551 P.2d at
334). These “special relationships generally involve
some kind of dependency or reliance.” Olson v. Children’s Home Soc’y, 204 Cal. App. 3d 1362, 1366 (1988);
see e.g., Williams v. State of California, 664 P.2d 137,
139 (Cal. 1983) (a factor supporting a special relationship is detrimental reliance by a person on another
54

Motion to Dismiss—ECF No. 15 at 26.

52a
person’s conduct that induced a false sense of security
and worsened the position of the person relying on the
conduct).
“ ‘[T]he use of special relationships to create duties
has been largely eclipsed by the more modern use of
balancing policy factors enumerated in Rowland [v.
Christian.]’ ” McGarry, 158 Cal. App. 4th at 996 (quoting Doe 1 v. City of Murrieta, 102 Cal. App. 4th 899, 918
(2002)) (citing Rowland v. Christian, 443 P.2d 561, 564
(Cal. 1968)). The Rowland factors are the following:
“[(1)] the foreseeability of harm to the plaintiff, [(2)] the
degree of certainty that the plaintiff suffered injury,
[(3)] the closeness of the connection between the defendant’s conduct and the injury suffered, [(4)] the moral
blame attached to the defendant’s conduct, [(5)] the
policy of preventing future harm, [(6)] the extent of the
burden to the defendant and consequences to the community of imposing a duty to exercise care with resulting liability for breach, and [(7)] the availability, cost,
and prevalence of insurance for the risk involved.” Id.
at 996–97 (quoting Rowland, 443 P.2d at 564); see also
Hansra v. Superior Court, 7 Cal App. 4th 630, 646
(1992) (“whether a special relationship exists giving
rise to a duty to protect . . . [involves] consideration of
the same factors underlying any duty of care analysis”).
Following remand of the Internet Brands case,
the district court addressed whether a website has
a “special relationship” with its users that required
the website to warn users of known risks on the website. See Jane Doe No. 14 v. Internet Brands, Inc., No.

53a
2:12-CV-3626-JFW (PJW), ECF No. 51 (C.D. Cal. Nov.
14, 2016). The court found no special relationship and
thus no duty to warn. Id. at 5–6.
The plaintiff was an aspiring model who was a
member of the networking website modelmayhem.com.
Id. at 1. Two men—who were unaffiliated with the
website—used the website to identify and lure victims
(including the plaintiff) to Florida, where they drugged
and raped the victims, filming the rapes for distribution as pornography videos. Id. at 2. The plaintiff
claimed that by the time she was raped in 2011, Internet Brands knew about the two men, had a duty to
warn its users, and thus was liable for its negligent
failure to warn her. Id. at 2–3.
The case involved nonfeasance, not misfeasance.
Id. at 5 (rejecting as unsubstantiated the claim that
Internet Brands created the risk). The court found no
“special relationship” between Internet Brands and
the two men who carried out the rape scheme, and it
thus found that Internet Brands had no duty to control
their conduct. Id. It then addressed whether Internet
Brands had a “special relationship” with the victimplaintiff, who was a member of the website “along with
at least 600,000 others.” Id. The court applied the Rowland factors and concluded that there was no special
relationship between the website and its users and
thus no duty to warn. Id. at 5–6.
Another district court—again on remand from the
Ninth Circuit—also concluded that a website had no
duty to warn its users. Beckman v. Match.com, LLC,

54a
No. 2:13-CV-97 JCM (NJK), 2017 WL 1304288, at *4
(D. Nev. Mar. 10, 2017). The plaintiff met and dated a
man on Match.com and ended their relationship eight
days later. Id. at *1. He then sent her threatening messages for about four days, and four months later, attacked her viciously. Id. She sued Match.com for failure
to warn her that the website and her attacker were
dangerous, basing her claim in part on Match.com’s access to data about its users and use of the data to create matches. Id. at *1–*3. Applying Nevada law, which
is similar to California law, the court found no special
relationship between Match.com and the plaintiff. Id.
at *3–*4. The plaintiff was merely a paying subscriber,
paid the fee, set up her profile, and was matched with
the attacker. Id. at *3. The court concluded that the
website had no special relationship with the plaintiff
and thus no duty to warn her. Id. at *4.
These cases support the conclusion that a website
has no “special relationship” with its users. Ms. Dyroff
nonetheless contends that websites [sic] operators
such as Ultimate Software are the “twenty-first century equivalent of a brick and mortar business . . . like
restaurants, bars, . . . amusement parks, and all businesses open to the public” and have the same duty that
all businesses open to the public owe their invitees.
The duty “includ[es] ‘tak[ing] affirmative action to control the wrongful acts of third persons which threaten
invitees where the occupant has reasonable cause to

55a
anticipate such acts and the probability of injury resulting therefrom.”55
If the court followed this approach, it would render
all social-network websites potentially liable whenever
they connect their members by algorithm, merely because the member is a member. This makes no sense
practically. Imposing a duty at best would result in a
weak and ineffective general warning to all users. Internet Brands, No. 2:12-cv-3626-JFW (PJW), ECF No.
51 at 6. It also “likely [would] have a ‘chilling effect’ on
the [I]nternet by opening the floodgates of litigation.”
Id. at 7 (referencing the briefs in the Ninth Circuit).
Also, the court is not convinced that a bricks-andmortar business (such as a bar where people meet
more obviously) is a good analogue to a social-network
website that fosters connections online. For one, allocating risk is (in part) about foreseeability of harm and
the burdens of allocating risk to the defendant or the
plaintiff. See Rowland, 443 P.2d at 561. Risk can be
more apparent in the real world than in the virtual
social-network world.56 That seems relevant here, when
55

Opposition to Motion to Dismiss—ECF No. 15 at 24–26
(quoting Taylor v. Centennial Bowl, Inc., 416 P.2d 793, 797 (Cal.
1996)).
56
Ms. Dyroff cites eBay, Inc. v. Bidder’s Edge, Inc. to support
the conclusion that a business’s liability does not turn on the difference between a bricks-and-mortar business and an Internet
business. Opposition to Motion to Dismiss—ECF No. 15 at 24–25
(citing 100 F. Supp. 2d 1058, 1065 (N.D. Cal. 2000)). eBay does
not change the court’s conclusion. In eBay, the court granted eBay
a preliminary injunction to prevent a competing auction website from scanning eBay’s website for auction information. 100
F. Supp. 2d at 1065. The court held that the difference between

56a
the claim is that a social-network website ought to
perceive risks—through its automatic algorithms and
other inputs—about a drug dealer on its site.
Moreover, even if Ultimate Software had superior knowledge about Mr. Margenat-Castro’s selling
fentanyl-laced heroin, that knowledge does not create
a special relationship absent dependency or detrimental reliance by its users, including Mr. Greer. Internet Brands, No. 2:12-cv-3626-JFW (PJW), ECF No. 51
at 6 (“it may have been foreseeable that [the two
men] would strike again”). For example, in Conti v.
Watchtower Bible & Tract Society of New York, Inc., the
California Court of Appeal held that a religious organization had no special relationship with its congregation and thus had no duty to warn them—despite its
knowledge of the high risk of recidivism—that a fellow
member was a child molester. Id. (citing Conti, 235 Cal.
App. 4th 1214 (2015), as the case with the most analogous facts). In Olson, the California Court of Appeal
held that there was no ongoing “special relationship”
between an adoption agency and a birth mother who
gave up her son for adoption that required the agency
to notify the birth mother when it learned that the son
tested positive for a serious inherited disease passed
eBay’s virtual store and a physical store were “formalistic,” and it
found the competitor’s actions more like a trespass to real property (as opposed to a trespass to chattels) because the electronic
signals were sufficiently tangible to equate to a physical presence
on eBay’s property. Id. at 1067 & n.16. That result makes sense:
there was a threatened physical incursion onto eBay’s website.
But it provides no support for equating bricks-and-mortar businesses (such as bars) to social-network websites.

57a
from mothers to their male offspring. Olson, 204 Cal.
App. 3d at 1366–67. The birth mother later had a second son with the same affliction. Id. By contrast, a duty
can arise for a defendant with superior knowledge if
there is dependency or reliance. See Internet Brands,
No. 2:12-cv-3626-JFW (PJW), ECF No. 51 at 6 n.3 (citing O’Hara v. Western Seven Trees Corp., 75 Cal. App.
3d 798 (1977)). In O’Hara, the landlord had a duty to
warn his tenant, who was raped, about the risks because he knew of prior rapes at the apartment complex, knew about the likelihood of a repeat attack
because police gave him composite drawings of the suspect and a description of his modus operandi, failed to
warn his tenant, and assured her that the premises
were safe and patrolled at all times by professional
guards). Id. (citing O’Hara, 75 Cal. App. 3d 798). Here,
Ms. Dyroff has not alleged dependency or reliance.
In sum, the court holds that there was no special
relationship between Ultimate Software and Mr. Greer
that gave rise to a duty to warn.
2.2 Duty to Warn—
Misfeasance (Creation of Risk)
Ms. Dyroff also contends that Ultimate Software
created a risk of harm through its website functionalities and thus owed her son an ordinary duty of care to
warn him about Mr. Margenat-Castro’s trafficking of
fentanyl-laced heroin.57 The court holds that Ultimate
Software’s use of the neutral tools and functionalities
57

Opposition to Motion to Dismiss—ECF No. 15 at 26.

58a
on its website did not create a risk of harm that imposes
an ordinary duty of care. See Lugtu, 28 P.3d at 256–57
(negligence standard for misfeasance). A contrary holding would impose liability on a social-network website
for using the ordinary tools of recommendations and
alerts. The result does not change merely because Experience Project permitted anonymous users.
2.3

Assumption of Risk

The last issue is whether the assumption-of-risk
doctrine bars Mr. Greer’s failure-to-warn claim. Because the court holds that there is no duty to warn, it
does not reach the issue. If it were to reach the issue,
it would likely hold that the doctrine operates as a
complete bar to his claim because Mr. Greer—who initiated the contact with Mr. Margenat-Castro by his
posts on Experience Project and then bought drugs
from him—assumed the obviously dangerous risk of
buying drugs from an anonymous Internet drug dealer.
See, e.g., Souza v. Squaw Valley Ski Corp., 138 Cal. App.
4th 262, 266–67 (2006).
*

*

*

CONCLUSION
The court grants the motion to dismiss without
prejudice. The plaintiff must file any amended complaint within 21 days.
This disposes of ECF No. 13.
IT IS SO ORDERED.

59a
47 U.S.C.A. § 230. Protection for private
blocking and screening of offensive material
Effective: April 11, 2018
(a)

Findings

The Congress finds the following:
(1) The rapidly developing array of Internet and
other interactive computer services available to
individual Americans represent an extraordinary
advance in the availability of educational and informational resources to our citizens.
(2) These services offer users a great degree of
control over the information that they receive, as
well as the potential for even greater control in the
future as technology develops.
(3) The Internet and other interactive computer
services offer a forum for a true diversity of political discourse, unique opportunities for cultural development, and myriad avenues for intellectual
activity.
(4) The Internet and other interactive computer
services have flourished, to the benefit of all Americans, with a minimum of government regulation.
(5) Increasingly Americans are relying on interactive media for a variety of political, educational,
cultural, and entertainment services.

60a
(b)

Policy

It is the policy of the United States –
(1) to promote the continued development of the
Internet and other interactive computer services
and other interactive media;
(2) to preserve the vibrant and competitive free
market that presently exists for the Internet and
other interactive computer services, unfettered by
Federal or State regulation;
(3) to encourage the development of technologies
which maximize user control over what information is received by individuals, families, and
schools who use the Internet and other interactive
computer services;
(4) to remove disincentives for the development
and utilization of blocking and filtering technologies that empower parents to restrict their children’s access to objectionable or inappropriate
online material; and
(5) to ensure vigorous enforcement of Federal
criminal laws to deter and punish trafficking in
obscenity, stalking, and harassment by means of
computer.
(c) Protection for “Good Samaritan” blocking
and screening of offensive material
(1)

Treatment of publisher or speaker

No provider or user of an interactive computer service shall be treated as the publisher or speaker of
any information provided by another information
content provider.

61a
(2)

Civil liability

No provider or user of an interactive computer service shall be held liable on account of –
(A) any action voluntarily taken in good
faith to restrict access to or availability of material that the provider or user considers to be
obscene, lewd, lascivious, filthy, excessively violent, harassing, or otherwise objectionable,
whether or not such material is constitutionally protected; or
(B) any action taken to enable or make
available to information content providers or
others the technical means to restrict access
to material described in paragraph (1).1
(d)

Obligations of interactive computer service

A provider of interactive computer service shall, at the
time of entering an agreement with a customer for the
provision of interactive computer service and in a manner deemed appropriate by the provider, notify such
customer that parental control protections (such as
computer hardware, software, or filtering services) are
commercially available that may assist the customer
in limiting access to material that is harmful to minors. Such notice shall identify, or provide the customer with access to information identifying, current
providers of such protections.

1

So in original. Probably should be “subparagraph (A)”.

62a
(e)

Effect on other laws
(1)

No effect on criminal law

Nothing in this section shall be construed to impair the enforcement of section 223 or 231 of this
title, chapter 71 (relating to obscenity) or 110 (relating to sexual exploitation of children) of Title
18, or any other Federal criminal statute.
(2)

No effect on intellectual property law

Nothing in this section shall be construed to limit
or expand any law pertaining to intellectual property.
(3)

State law

Nothing in this section shall be construed to prevent any State from enforcing any State law that
is consistent with this section. No cause of action
may be brought and no liability may be imposed
under any State or local law that is inconsistent
with this section.
(4) No effect on communications privacy
law
Nothing in this section shall be construed to limit
the application of the Electronic Communications
Privacy Act of 1986 or any of the amendments
made by such Act, or any similar State law.
(5)

No effect on sex trafficking law

Nothing in this section (other than subsection
(c)(2)(A)) shall be construed to impair or limit –
(A) any claim in a civil action brought under section 1595 of Title 18, if the conduct

63a
underlying the claim constitutes a violation of
section 1591 of that title;
(B) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section 1591
of Title 18; or
(C) any charge in a criminal prosecution brought
under State law if the conduct underlying the
charge would constitute a violation of section
2421A of Title 18, and promotion or facilitation of
prostitution is illegal in the jurisdiction where the
defendant’s promotion or facilitation of prostitution was targeted.
(f )

Definitions
As used in this section:
(1)

Internet

The term “Internet” means the international computer network of both Federal and non-Federal interoperable packet switched data networks.
(2)

Interactive computer service

The term “interactive computer service” means
any information service, system, or access software provider that provides or enables computer
access by multiple users to a computer server, including specifically a service or system that provides access to the Internet and such systems
operated or services offered by libraries or educational institutions.

64a
(3)

Information content provider

The term “information content provider” means
any person or entity that is responsible, in whole
or in part, for the creation or development of information provided through the Internet or any other
interactive computer service.
(4)

Access software provider

The term “access software provider” means a provider of software (including client or server software), or enabling tools that do any one or more of
the following:
(A)

filter, screen, allow, or disallow content;

(B)

pick, choose, analyze, or digest content; or

(C) transmit, receive, display, forward, cache,
search, subset, organize, reorganize, or translate
content.

